DOE/IG-0500




            AUDIT                      VIRUS PROTECTION
                                     STRATEGIES AND CYBER
           REPORT                 SECURITY INCIDENT REPORTING




                                               APRIL 2001




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
      OFFICE OF AUDIT SERVICES




 Page 21
                                          April 5, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Virus Protection Strategies and
                       Cyber Security Incident Reporting"


BACKGROUND

Information Technology (IT) plays an integral role in the programs and operations of the
Department of Energy. In Fiscal Year 2001, the Department budgeted $1.4 billion for the
acquisition and maintenance of IT related resources, a portion of which supports the Advanced
Strategic Computing Initiative. These resources, and the programs they support, are vulnerable
to malicious software, viruses, trojans, worms (collectively referred to as viruses), and cyber
security attacks. To effectively protect its IT resources, the Department must ensure that its
virus protection and detection capabilities as well as its cyber security incident reporting
practices are "state of the art."

The objective of this audit was to determine whether the Department's virus protection
strategies and cyber security incident reporting methods protect systems from damage by
malicious software and provide information needed to manage network intrusion threats.

RESULTS OF AUDIT

The Department's systems were not adequately protected from damage by viruses because of
shortcomings in its virus protection strategies and cyber security incident reporting methods.
Further, the incident reporting scheme in use at the time of our audit did not provide sufficient
information to appropriately manage the Department's network intrusion threat. Specifically,
we found that:

      • site virus protection strategies were not consistent with best practices and varied
        widely on a site-by-site basis in levels of coverage and effectiveness; and,

      • the Department was unable to accumulate sufficient information necessary to manage
        its network intrusion threat and risked compromising evidence of computer crimes
        because of problems with reporting cyber security incidents to monitoring officials.
     MANAGEMENT REACTION

     We made a number of recommendations designed to improve the effectiveness of the Department's
     virus protection strategy and cyber security incident reporting programs. Management agreed, in
     general, with the recommendations and agreed to develop policy and establish specific performance
     goals to measure the success of policy implementation. Management agreed, as well, to continue to
     investigate whether a centrally managed procurement for virus protection software is viable or if
     alternatives exist and stated a decision will be made in 90 days.

     By design, the recommendations included in this report are policy-oriented and are, therefore,
     directed to Department IT and Security policymakers. Based on our discussions with responsible
     officials, it appears unlikely that policy changes alone, as meaningful as they may be, will result in
     improving the Department's performance in the areas covered by this report. Given the decentralized
     organizational structure of the Department of Energy, success is dependent upon a cooperative effort
     that includes the active participation of those responsible for making policy as well as Headquarters
     and local program officials—both Department and NNSA. To this end, we believe that program
     officials should play a significant role in developing the policies that they will ultimately have to
     implement to improve the Department's virus protection and cyber security reporting programs.


     Attachment

     cc:   Administrator, National Nuclear Security Administration
           Acting Director, Office of Security and Emergency Operations
           Acting Chief Information Officer




Page 20
VIRUS PROTECTION STRATEGIES AND CYBER SECURITY
INCIDENT REPORTING

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ............................................................1

               Conclusions and Observations .....................................................1


               Virus Protection and Incident Reporting

               Details of Finding .........................................................................3

               Recommendations and Comments ............................................ 10


               Appendices

               1. Scope and Methodology ....................................................... 12

                2. Related Office of Inspector General and
                     General Accounting Office Reports………………………...14
OVERVIEW
                   The Department of Energy (Department) devotes a significant amount
INTRODUCTION AND   of its annual budget to the acquisition and maintenance of information
OBJECTIVE          technology (IT) related resources. In Fiscal Year (FY) 2001, the
                   Department budgeted $1.4 billion for IT investments, a portion of
                   which supports weapons programs such as the Advanced Strategic
                   Computing Initiative. Protecting these resources from malicious
                   software, viruses, trojans, worms (collectively referred to as viruses),
                   and potential attacks is of paramount concern. The Office of Chief
                   Information Officer (CIO) and the Department's Computer Incident
                   Analysis & Assistance Center (CIAC) have key roles in helping the
                   Department provide an effective information security infrastructure.
                   The CIO is charged with promulgating cyber security policy and
                   ensuring its implementation, while CIAC is charged with collecting,
                   analyzing, and disseminating data on cyber security incidents
                   throughout the Department.

                   In recent years, the computing and information management
                   environment within the Department has changed tremendously. The
                   occurrences of viruses and attempted network intrusions throughout the
                   Department have increased dramatically. To be proactive in protecting
                   its IT resources, the Department must develop a complete picture of the
                   type of cyber security incidents occurring throughout the complex. The
                   entire Department must endeavor to continually improve its virus
                   protection and detection capabilities as well as cyber security incident
                   reporting to wage a successful protection and response campaign.
                   According to the National Institute of Standards and Technology, best
                   practices for virus protection call for a tiered approach that includes
                   clear policies and procedures, the installation of software on all servers,
                   desktops, laptops and Internet gateways, and frequent software updates.

                   The objective of this audit was to determine whether the Department's
                   virus protection strategies and cyber security incident reporting
                   methods protect systems from damage by malicious software (viruses)
                   and provide information needed to manage its network intrusion threat.


CONCLUSIONS AND    The Department's virus protection strategies and cyber security incident
OBSERVATIONS       reporting methods did not adequately protect systems from damage by
                   viruses and did not provide sufficient information needed to manage its
                   network intrusion threat. For example, site virus protection strategies
                   were not consistent with best practices and varied widely in levels of
                   coverage and effectiveness. Also, the Department was unable to
                   accumulate sufficient information necessary to manage its network
                   intrusion threat and risked compromising evidence of computer crimes
                   because many organizations did not report or provided only limited

Page 1                                                        Introduction and Objective/
                                                           Conclusions and Observations
         information regarding cyber security incidents to CIAC. The
         Clinger-Cohen Act and other Federal regulations required the
         Department to establish a comprehensive cyber security program that
         had a robust virus protection strategy and an incident response
         capability that identified the overall cyber security threat to the
         complex. These problems existed because the Department had not
         developed and implemented an effective enterprise-wide strategy for
         virus protection and cyber security incident reporting. As a result, the
         Department spent over $3.8 million annually for a computer incident
         response capability that cannot adequately assess the threat experienced
         by the complex as a whole. In addition, the Department could improve
         consistency, increase overall coverage, and save as much as $3 million
         by adopting an enterprise-wide approach to virus protection software
         acquisition.

         Management should consider the issues discussed in this report when
         preparing its yearend assurance memorandum on internal controls.




                                                       Signed
                                               Office of Inspector General




Page 2                                         Conclusions and Observations
VIRUS PROTECTION AND INCIDENT REPORTING

Protection and   The Department's virus protection strategies and cyber security incident
Reporting        reporting methods did not adequately protect systems from damage by
                 viruses and did not provide sufficient information needed to manage its
                 network intrusion threat. For example, site virus protection strategies
                 were not consistent with best practices and varied widely in levels of
                 coverage and effectiveness. The Department was unable to accumulate
                 sufficient information necessary to manage its network intrusion threat
                 and risked compromising evidence of computer crimes because many
                 organizations did not report or provided only limited information
                 regarding cyber security incidents to CIAC. Furthermore, the
                 Department's primary control for the development and implementation
                 of site-specific Cyber Security Program Plans (Program Plan) was not
                 working properly.

                                              Virus Protection

                 Site virus protection strategies were not consistent with best practices
                 and varied widely in levels of coverage. Contrary to best practices,
                 most sites did not use a tiered strategy that included protection of all
                 desktops, laptops, servers, and Internet gateways or firewalls.
                 Currently, Departmental entities are free to choose a virus protection
                 strategy when designing their Program Plan. As such, each site
                 reviewed had developed a customized approach that relied on
                 individually purchasing a combination of virus protection software
                 packages that did not necessarily protect all computers. For instance,
                 Lawrence Livermore National Laboratory relied primarily on desktop
                 software for virus protection and did not have virus software installed
                 on its servers. DOE Headquarters had a tiered strategy that included
                 protection at the e-mail server and desktop computer, but did not
                 consistently protect systems from infected e-mails sent from within
                 Headquarters elements. Lawrence Livermore National Laboratory
                 officials informed us that they began adding additional virus protection
                 software on other key components of their network to strengthen their
                 virus defense during January 2001.

                 In many of the systems on which virus protection software had been
                 installed, its effectiveness was limited because it was not properly
                 updated. For a protection strategy to be effective, virus definition files
                 must be continually updated because new virus attacks are continually
                 promulgated. These definition files contain attributes that virus
                 protection software uses to recognize the "signature" of known viruses.
                 Departmental elements used a variety of techniques to update virus




Page 3                                                              Details of Finding
         definition files but were not always successful in reaching all
         computers. Of the 169 computers we tested at 9 Departmental
         elements, we noted that virus definition updates varied in age from
         current (within a week) to about 23 months. For example, the age of
         definition files at the Sandia National Laboratory in California ranged
         from 1 to 772 days and those at the Oak Ridge Operations Office's
         ranged from 5 to 540 days. In addition, we found that laptops were the
         least protected computers throughout the Department. Of the 15
         laptops we tested, 14 or 93 percent, did not have current file definitions.
         The definitions ranged from 6 days to as old as 540 days, with no
         protection at all installed on 2 computers. The Nevada Operations
         Office installation of virus protection software on new laptops
         contained virus definitions that were over 600 days old. Nevada
         officials informed us that they are revising their maintenance approach
         for laptops to automatically update virus definition files.

                                     Incident Reporting

         While the Department had developed and implemented an incident
         response capability, incomplete reporting by sites and program
         elements severely limited its effectiveness. Based on Departmental
         statistics, less than 50 percent of sites with reporting responsibility
         consistently reported cyber security incidents. Of those reporting, only
         5 sites reported all significant cyber security incidents to CIAC. While
         the number of sites that report incidents is increasing, many sites still do
         not report virus incidents and judgmentally select which other cyber
         security incidents to report. For example, Oak Ridge and Sandia
         National Laboratories did not report all virus incidents to CIAC. In
         addition, most of the sites we visited summarized and selected which
         incidents (scans, probes, attempted intrusions, intrusions, and viruses)
         to report. Lawrence Livermore and Oak Ridge National Laboratories
         had an automated system that reported all incidents except viruses.
         Without complete data, CIAC is unable to accurately assess the threat
         to the Department's information systems and to provide complete and
         up-to-date predictive warnings.

         Incomplete and untimely reporting also adversely impacts the
         Department's ability to satisfy internal and external reporting
         requirements and to protect evidence in cases with investigative
         potential. Based on subject matter and severity of the threat,
         cyber security incidents require specific responses by various
         organizations within the Department. Without accurate
         reporting, internal organizations such as the Offices of Security



Page 4                                                       Details of Finding
         and Emergency Operations, the CIO, and Counterintelligence
         may not be prepared to initiate timely and appropriate corrective
         actions or countermeasures. In addition, lack of reporting may
         jeopardize systems of other Federal organizations since accurate
         threat data cannot be provided to national-level organizations
         such as the Federal Computer Incident Response Capability and
         the National Infrastructure Protection Center. Incomplete
         reporting also limits the Department's ability to protect or
         preserve evidence in cyber security incidents. For example, of
         the 103 successful intrusions reported to CIAC in FY 2000, the
         Office of Inspector General's Technology Crimes Section
         reported that it was only able to open investigations in 12 cases
         because of the lack of notification or timely preservation of
         evidence.

                          Cyber Security Program Plans

         The Department's primary control for the development and
         implementation of site-specific Cyber Security Program Plans was not
         working properly. Each Departmental element was to submit a draft
         Program Plan to the CIO for review and subsequently submit an
         approved Program Plan for inclusion in the CIO's central repository.
         Although Departmental Notice 205.1, "Unclassified Cyber Security
         Program" (Notice), required the Program Plan to specify the frequency
         of updating definition files, only six of the ten Program Plans reviewed
         contained that information. Even though Oakland Operations Office's
         Program Plan stated definition files would be updated weekly, we found
         the implementation to be wanting in that 37 of 38 computers
         judgmentally checked had definition file dates that exceeded their
         Program Plan guidelines. Generally, the Program Plans neither
         contained clear definitions of the cyber security incidents to be
         reported, nor contained comprehensive reporting protocols. Although
         specifically required, six reporting elements did not submit draft plans
         to the CIO for review. As of December 2000, only 2 of the 108
         elements complied with Departmental requirements to provide an
         approved plan, incorporating review comments, to the CIO for
         retention. After completion of our audit field work, the CIO reported
         78 additional elements returned approved Program Plans for retention
         leaving 28 plans outstanding.




Page 5                                                     Details of Finding
Protection and Reporting   The Clinger-Cohen Act and other Federal regulations required the
Requirements               Department to establish a comprehensive cyber security program that
                           has a robust virus protection strategy and an incident response
                           capability to identify the overall cyber security threat to the complex. A
                           minimal virus protection strategy should be based on a tiered strategy.
                           According to the National Institute of Standards and Technology
                           (NIST) and the Critical Infrastructure Assurance Office, this tiered
                           approach should include:

                                • Formal written policy and procedures detailing the protection
                                  strategy, user and management responsibilities, coverage,
                                  software updating, and incident reporting;

                                • The installation and use of virus software on personal
                                  computers (desktops and laptops) capable of scanning disks,
                                  attachments to e-mails, files downloaded from the Internet, and
                                  documents generated by word processing and spreadsheet
                                  programs;

                                • Use of virus software on servers, at Internet gateways or
                                  firewalls, to scan e-mail attachments and other downloaded
                                  files; and

                                • Virus software installed on computers when initially configured
                                  and, at a minimum, updated weekly.

                           Federal policy standards setting bodies emphasize that agencies must be
                           continually vigilant in their virus protection strategies. NIST requires
                           that agencies maintain their virus alert defenses through clear policies
                           and procedures, ongoing awareness and education campaigns, effective
                           communication strategies, and effective technology deployment on all
                           computers. The Government's Critical Infrastructure Assurance Office
                           also stresses that information security measures should include software
                           and electronic tools, such as virus software, installed at various points
                           in the client-server architecture.

                           According to the Office of Management and Budget, the Federal
                           Computer Incident Response Capability and NIST, a computer security
                           incident response capability (incident response capability) should be
                           thought of as a direct extension of the contingency planning process.
                           An agency's incident response capability should be the central
                           capability for dealing with virtually any computer security problem that
                           occurs. It should provide a means for reporting incidents,
                           disseminating important incident-related information to management

Page 6                                                                       Details of Finding
                          and users, and coordinating incident handling. The goal of incident
                          response is to mitigate the potentially serious effects of a computer
                          security-related problem. To achieve this aim, an incident response
                          capability requires the involvement and cooperation of the entire
                          agency in reporting cyber security incidents in a timely manner. Such
                          involvement and cooperation is essential for the accumulation of
                          information necessary to manage the Department's network intrusion
                          threat.


Ineffective Enterprise-   Problems with virus protection and cyber security incident reporting
Wide Strategy             occurred because the Department had not developed and implemented
                          an effective enterprise-wide protection strategy. Departmental
                          implementing guidance for virus protection strategies did not mandate a
                          minimum-level of protection and did not include provisions for the
                          development of an enterprise-wide virus protection software contract.
                          Guidance for cyber security incident reporting did not clearly establish
                          mandatory reporting guidelines and provided no mechanism for
                          enforcement. The absence of specific performance measures also
                          adversely impacted the Department's protection efforts.

                                                Virus Protection Guidance

                          Departmental implementing guidance for virus protection strategies did
                          not mandate a minimum-level of protection and did not include
                          provisions for the development of an enterprise-wide virus protection
                          software contract. For example, reporting elements were required to
                          specify a virus protection strategy in the Program Plan, however the
                          Department did not mandate a specific minimum level of virus
                          protection. While the CIO provided sites with recommendations on
                          developing a tiered virus protection strategy, the guidance was not
                          mandatory. Consequently, each site developed a plan with varying
                          degrees of coverage that did not necessarily meet best practices or
                          conform to the CIO recommendations. In addition, Departmental
                          Notice 205.1 did not include provisions for the acquisition of an
                          enterprise-wide virus protection software package to be made available
                          to all Federal and contractor elements.




Page 7                                                                      Details of Finding
                                             Incident Reporting Guidance

                        Guidance for cyber security incident reporting did not clearly establish
                        mandatory reporting guidelines and provided no mechanism for
                        enforcement. For example, the Notice did not clearly define what
                        constituted a reportable cyber security incident and consequently each
                        site interpreted and reported incidents differently. In July 2000, the
                        CIO recognized that cyber security incidents needed to be better
                        defined and announced its intention to develop an Indications, Warning,
                        Analysis and Reporting Capability policy. Until this policy was
                        completed, the CIO instructed all Departmental elements to report, at a
                        minimum, successful compromises, infrastructure disruptions, and
                        attempted intrusions to CIAC. The Director of Cyber Programs, Office
                        of Counterintelligence echoed this point in November 2000 indicating
                        that the development of common computer security incident definitions
                        and response protocols to ensure standardized and coordinated
                        responses across the Department remained a significant concern. Yet,
                        to date the revised policy has not been issued. In addition, the Notice
                        and the draft policy did not contain enforcement mechanisms that
                        required either the CIO or Lead Program Secretarial Offices to ensure
                        that all Departmental elements were properly reporting.

                                                  Performance Goals

                        While the Department had developed high-level performance goals
                        with respect to site-level cyber security reviews, specific virus
                        protection and cyber security incident response related performance
                        goals as required by the Government Performance and Results Act of
                        1993 (GPRA) had not been developed. GPRA requires Federal
                        agencies to establish clear and measurable performance goals for all
                        critical programs. Without specific goals, the Department lacked a
                        basis to measure and demonstrate its performance in this highly
                        sensitive area.


Benefits Not Achieved   The Department spends over $3.8 million annually for a computer
                        incident response capability that cannot adequately assess the threats
                        facing the Department or provide for complete and up-to-date
                        predictive warnings. As such, incomplete reporting of cyber security
                        incidents increased the risk of damage to the Department's IT
                        infrastructure. In addition, the Department could save as much as
                        $3 million by adopting an enterprise-wide approach to virus protection
                        software acquisition.



Page 8                                                                   Details of Finding
         The Department had not effectively taken advantage of consolidated
         buying opportunities such as enterprise-wide contracts when
         procuring virus protection software. As a consequence, sites and
         program elements procured software independently at prices ranging
         from $2 to $35 per copy. As noted in our Audit Report on
         Commercial Off-The-Shelf Software Acquisition Framework (DOE/
         IG-0463, March 2000), procurement of enterprise-wide licenses
         allows a diverse organization, such as the Department of Energy, to
         maximize its return on IT investment by increasing its buying power
         and gaining economies of scale. As also noted in this report, sites
         and program elements maintain at least nine different virus protection
         software products. While the Department has initiated action to
         standardize desktop computer software, virus protection software
         standards have not yet been addressed. Pooling the Department's
         purchases in this area could substantially decrease expenditures for
         virus protection software and could reduce the risk of damage to its
         critical information systems by providing a consistent minimum level
         of virus protection Departmentwide.

                               Ongoing Security Efforts

         To its credit, CIAC is working with the Office of Inspector General's
         Technology Crimes Section and reporting of cyber security incidents
         has become more consistent. Also, the CIO is developing an incident
         reporting policy and attempting to clearly define reportable cyber
         security incidents and reporting protocols. Once completed, the
         policy may provide additional guidance to sites on reporting
         requirements to allow the Department to make cost-effective,
         risk-based information security decisions. Further, the CIO entered
         into an enterprise-wide license for network security scanning
         software that was made available to all Departmental elements.
         Moreover, the Office of Counterintelligence has collaborated with
         CIAC to develop and implement the Operational Analysis Center to
         share data on information security risks within the Department.
         Nevertheless, proper virus protection and incident reporting within
         the Department remained a challenge.




Page 9                                                      Details of Finding
RECOMMENDATIONS   To ensure the Department's virus protection strategies and cyber
                  security incident reporting methods sufficiently protect IT resources
                  we recommend that the Director of the Office of Security and
                  Emergency Operations and the Chief Information Officer:

                     1. Finish the development and implementation of the
                        Indications, Warning, Analysis and Reporting Capability
                        policy, paying particular attention to ensure that the final
                        policy includes clearly defined cyber security incidents to be
                        reported, required incident data collection and evidence
                        preservation methods, standardized reporting forms and/or
                        other mechanisms, and mandatory reporting to CIAC.

                     2. Develop and implement a program to monitor cyber security
                        incident reporting to ensure that all Departmental elements are
                        properly reporting, including a negative response when no
                        incidents occur during the reporting period.

                     3. Consistent with GPRA, establish performance goals to
                        measure the success of the Indications, Warning, Analysis,
                        and Reporting Capability policy implementation.

                     4. Develop a minimal virus protection strategy including an
                        enterprise-wide virus protection software suite, mandate
                        adherence to the strategy, and require the software's usage by
                        all Departmental elements.


MANAGEMENT        Management agreed, in general, with the recommendations related to
REACTION          virus protection strategies and cyber security incident reporting
                  within the Department. The proposed actions include finalizing DOE
                  Manual 205.X, Handling Cyber Security Alerts and Advisories,
                  Reporting Computer/Cyber Security Incident (Manual), which will
                  clarify responsibilities and processes for responding to cyber security
                  incidents. In addition, management indicated that performance
                  measures were being developed to better judge the effectiveness of
                  the cyber security program and implementation of the Manual.

                  However, management did not fully agree with recommendation 4.
                  Management partially concurred because they are trying to determine
                  whether the use of an enterprise-wide license for virus protection
                  software is cost-effective. Management agreed to investigate whether
                  a centrally managed procurement for virus protection software is
                  viable or if alternatives exist and make a decision in 90 days.


Page 10                                             Recommendations and Comments
AUDITOR COMMENTS   Management's comments and proposed actions are generally
                   responsive to the issues raised in this report. With regard to
                   recommendation 4, an enterprise-wide license has been shown to be a
                   cost-effective method of acquiring virus protection software. As
                   stated in the report, pooling the Department's purchases in this area
                   could substantially decrease expenditures for virus protection
                   software and could reduce the risk of damage to its critical
                   information systems by providing a consistent minimum level of virus
                   protection across the complex. The Department should explore
                   alternative funding approaches, such as combining funding from
                   various programs and the National Nuclear Security Administration,
                   to accomplish this goal.




Page 11                                           Recommendations and Comments
Appendix 1
SCOPE         The audit was performed between August 2000 and February 2001 at
              Departmental Headquarters in Washington, DC; the Lawrence
              Livermore National Laboratory in Livermore, California; the Sandia
              National Laboratory and Albuquerque Operations Office in
              Albuquerque, New Mexico; the Nevada Operations Office and
              Bechtel Nevada in Las Vegas, Nevada; and the Oak Ridge
              Reservation in Oak Ridge, Tennessee. Based on our on-site work and
              survey results, we accumulated statistics on 12 separate Departmental
              entities with regard to virus protection and incident reporting
              strategies.


METHODOLOGY   To accomplish our objectives, we:

                  • Reviewed applicable laws and regulations pertaining to the
                    use and acquisition of information technology. We also
                    reviewed reports by the Office of Inspector General, the
                    General Accounting Office, and various task forces and
                    advisory groups.

                  • Reviewed Departmental strategic plans and performance goals
                    for compliance with the Government Performance and Results
                    Act of 1993.

                  • Reviewed numerous documents related to the use and
                    acquisition of virus protection software. We also reviewed
                    Departmental planning documents related to cyber security
                    and incident reporting.

                  • Tested a judgmental sample of Federal and contractor
                    computers for current virus protection software and definition
                    dates.

                  • Held discussions with program officials and personnel from
                    the Offices of the Chief Information Officer, Procurement and
                    Assistance Management, and CIAC. We also held discussions
                    with various officials and staff at the operations offices and
                    laboratories we visited.

                  • Reviewed information from the Department of Defense
                    regarding initiatives undertaken to establish an enterprise-wide
                    virus protection software contract. Discussions were also held
                    with information technology vendors to gain their perspective
                    on the Department's acquisition practices.


Page 12                                               Scope and Methodology
          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objectives. Accordingly, we
          assessed internal controls regarding the use and acquisition of virus
          protection software. Because our review was limited, it would not
          necessarily have disclosed all internal control deficiencies that may
          have existed at the time of our audit. We did not rely on
          computer-processed data to accomplish our audit objectives. An exit
          conference was held with appropriate Headquarters officials on
          February 26, 2001.




Page 13                                            Scope and Methodology
Appendix 2

                        RELATED OFFICE OF INSPECTOR GENERAL
                       AND GENERAL ACCOUNTING OFFICE REPORTS


     This review concerned the Department's efforts to develop a comprehensive virus protection
     and incident reporting strategy and included a review of the Department's framework for
     software acquisitions, consisting of software standards and enterprise-wide software
     contracts. Prior related Office of Inspector General and General Accounting Office reviews
     include:

          • Review of the U.S. Department of Energy's Information Management Systems, DOE/
            IG-0423, August 1998. The report stated that the CIO lacked the authority and
            resources necessary to ensure development of information architectures at the
            program office level, which form the building blocks of a Departmental architecture.
            The report added that, as a result, the Department had not developed and
            implemented an information technology architecture, although its Strategic Plan
            called for the implementation of a Departmentwide information architecture with
            supporting standards by January 1998.

          • Audit of the Department of Energy's Commercial Off-The-Shelf Software (COTS),
            DOE/IG-0463, March 2000. The report found that the Department had not developed
            and implemented software standards or effectively used Departmentwide contracts,
            key components of a COTS acquisition framework. The Department had not made
            effective use of enterprise-wide software contracts. Instead the Department allowed
            various offices to duplicate procurement efforts by separately negotiating and
            awarding contracts for the same application. It also noted the Department had at least
            9 different virus software packages throughout the department.

          • Audit of the Department of Energy's Corporate and Stand-Alone Information
            Systems, DOE/IG-0485, September 2000. The report stated that the Department had
            not fully developed and implemented an application software strategy designed to
            reduce or eliminate duplicative systems.

          • Audit of the Department of Energy's Implementation of Presidential Decision
            Directive 63, Critical Infrastructure Protection, DOE/IG-0483, September 2000.
            The report stated the Department had not implemented its critical infrastructure
            protection plan to mitigate significant vulnerabilities, or assure the continuity and
            viability of its critical infrastructures. Therefore, the Department could not achieve
            the purpose of PDD 63.




Page 14                                                                                     Prior Reports
          • "ILOVEYOU" Computer Virus Emphasizes Critical Need for Agency and Governmentwide
            Improvements, GAO/AIMD/00-171, May 2000. The report stated that computer attacking
            tools and techniques are becoming increasingly sophisticated; viruses are spreading faster as
            a result of the increasing connectivity of today's networks, there is no "silver bullet" solution
            such as firewalls or encryptions. ILOVEYOU once again proved that Governmentwide
            reporting mechanisms are ineffective.

          • Critical Infrastructure Protection: Comments on the Proposed Cyber Security Information
            Act of 2000, GAO/AIMD/00-229, June 2000. The report stated that the federal government
            itself must be a model of good information security. Significant computer security
            weaknesses ranging from poor controls over access to sensitive systems and data, to poor
            control over software development and changes, to nonexistent or weak continuity of service
            plans pervade virtually every major agency.

          • Vulnerabilities in DOE's System for Unclassified Civilian Research, GAO/AIMD/00-140,
            June 2000. The report stated that the Department's unclassified information systems for
            scientific research are not consistently protected at all Department laboratories. The report
            also stated that while the Department has reported significant improvements, not all
            Departmental facilities have been reporting incidents to the Department's CIAC, and
            incidents are not consistently reported.

          •   Serious and Widespread Weaknesses Persist at Federal Agencies, GAO/AIMD/00-295,
              September 2000. The report stated evaluations of computer security published since July
              1999 continue to show that federal computer security is fraught with weaknesses and that as
              a result, critical operations and assets continue to be at risk.




Page 15                                                                                      Prior Reports
                                                                IG Report No.: DOE/IG-0500

                             CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   U. S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
